No. 19-930
In The
Supreme Court of the United States
CIC SERVICES, LLC,
Petitioner,
v.
INTERNAL REVENUE SERVICE; DEPARTMENT
OF TREASURY, UNITED STATES OF AMERICA,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I
certify that the Unopposed Motion for Leave to File
Brief Out of Time in the above-entitled case contains
211 words excluding parts of the document that are
exempted by Supreme Court Rule 33.1(d).
As required by Supreme Court Rule 33.1(h), I
certify that the Brief of Partnership For Conservation
As Amicus Curiae In Support Of Petitioner in the
above-entitled case contains 4,790 words excluding
parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.

2
Executed on July 28, 2020

NICOLE M. ELLIOTT, ESQ.
Counsel of Record
HOLLAND & KNIGHT LLP
800 17th Street, NW
Washington, DC 20006
(202) 469-5144
Nicole.Elliott@hklaw.com
Counsel for Amicus Curiae

